United States Court of Appeals for the
Ninth Circuit
FILED MAR 21 2019
MOLLY C. DWYER,
CLERK U.S. COURT OF APPEALS
No. 18-17463
D.C. No. 3:18-cv-05538-VC
Northern District of California, San Francisco
ENVIRONMENTAL RESEARCH CENTER, INC.,
PLAINTIFF-APPELLEE,
v.
HOTZE HEALTH WELLNESS CENTER
INTERNATIONAL ONE, LLC, INDIVIDUALLY
AND ALLEGEDLY DOING BUSINESS AS HOTZE
VITAMINS; ET AL.,
DEFENDANTS-APPELLANTS.
Submitted: June 14, 2018, Decided: June 18, 2018
ORDER
Before: SILVERMAN, TALLMAN, and MURGUIA,
Circuit Judges.
Appellee’s motion to dismiss this appeal for
lack of jurisdiction (Docket Entry No. 4) is granted.
See 28 U.S.C. § 1447(d); Things Remembered, Inc. v.
Petrarca, 516 U.S. 124, 127 (1995); Kunzi v. Pan Am.
World Airways, Inc., 833 F.2d 1291, 1293 (9th Cir.
1987).
Appellants’ motion to order the district court
to recall the case and stay proceedings pending
appeal (Docket Entry No. 6) is denied as moot.
DISMISSED.
1a

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
ENVIRONMENTAL RESEARCH CENTER, INC.,
PLAINTIFF,
v.
HOTZE HEALTH WELLNESS CENTER
INTERNATIONAL ONE, L.L.C., ET AL.,
DEFENDANTS.
Case No. 18-cv-05538-VC
ORDER GRANTING MOTION TO REMAND
Re: Dkt. Nos. 19, 21.
The Environmental Research Center’s motion
to remand the case to Alameda County Superior
Court is granted. The defendants have not shown
that Environmental Research Center would have
Article III standing to pursue their Proposition 65
action in federal court. Cf. Environmental Research
Ctr. v. Heartland Prods., 29 F. Supp. 3d 1281, 1282
(C.D. Cal. 2014). The defendants argue that
Environmental Research Center has standing as a
qui tam assignee of the State of California’s claims
under Vermont Agency of Nat. Res. v. U.S. ex. rel.
Stevens, 529 U.S. 765, 773 (2000). Even assuming
that Stevens applies, that theory raises significant
concerns that California is the real party in interest
to this case, such that there is no diversity
jurisdiction. See Moor v. Alameda Cty., 411 U.S. 693,
717 (1973); New Mexico ex rel. Nat’l Educ. Ass’n of
New Mexico, Inc. v. Austin Cap. Management Ltd.,
671 F. Supp. 2d 1248, 1251 (D.N.M. 2009). Because
the removal statute is strictly construed against
jurisdiction and any doubt as to the right of removal
2a

is resolved in favor of remand, the motion to remand
is granted. Gaus v. Miles, Inc., 980 F.2d 564, 566 (9th
Cir. 1992).
Environmental Research Center’s request for
attorney’s fees and the defendants’ request for 28
U.S.C. § 1292(b) certification are denied. The
defendants’ motion to transfer is denied as moot.
IT IS SO ORDERED.
Dated: December 21, 2018
VINCE CHHABRIA
United States District Judge

3a

CAL. CODE CIV. PROC. §367
Every action must be prosecuted in the name of
the real party in interest, except as otherwise
provided by statute.
CAL. CODE OF CIV. PROC. §1021.5
Upon motion, a court may award attorneys’ fees to
a successful party against one or more opposing
parties in any action which has resulted in the
enforcement of an important right affecting the public
interest if: (a) a significant benefit, whether pecuniary
or nonpecuniary, has been conferred on the general
public or a large class of persons, (b) the necessity and
financial burden of private enforcement, or of
enforcement by one public entity against another
public entity, are such as to make the award
appropriate, and (c) such fees should not in the
interest of justice be paid out of the recovery, if any.
…
CAL. HEALTH & SAFETY CODE §25249.7(c)-(d)
(c) Actions pursuant to this section may be
brought by the Attorney General in the name of the
people of the State of California, by a district attorney,
by a city attorney of a city having a population in
excess of 750,000, or, with the consent of the district
attorney, by a city prosecutor in a city or city and
county having a full-time city prosecutor, or as
provided in subdivision (d).
(d) Actions pursuant to this section may be
brought by a person in the public interest if both of the
following requirements are met:
(1) The private action is commenced more than 60
days from the date that the person has given notice of
an alleged violation of Section 25249.5 or 25249.6 that
4a

is the subject of the private action to the Attorney
General and the district attorney, city attorney, or
prosecutor in whose jurisdiction the violation is
alleged to have occurred, and to the alleged violator.
If the notice alleges a violation of Section 25249.6, the
notice of the alleged violation shall include a
certificate of merit executed by the attorney for the
noticing party, or by the noticing party, if the noticing
party is not represented by an attorney. The
certificate of merit shall state that the person
executing the certificate has consulted with one or
more persons with relevant and appropriate
experience or expertise who has reviewed facts,
studies, or other data regarding the exposure to the
listed chemical that is the subject of the action, and
that, based on that information, the person executing
the certificate believes there is a reasonable and
meritorious case for the private action. Factual
information sufficient to establish the basis of the
certificate of merit, including the information
identified in paragraph (2) of subdivision (h), shall be
attached to the certificate of merit that is served on
the Attorney General.
(2) Neither the Attorney General, a district
attorney, a city attorney, nor a prosecutor has
commenced and is diligently prosecuting an action
against the violation.
CAL. HEALTH & SAFETY CODE §25249.11(b)
(b) “Person in the course of doing business” does
not include any person employing fewer than 10
employees in his or her business; any city, county, or
district or any department or agency thereof or the
state or any department or agency thereof or the
federal government or any department or agency
5a

thereof; or any entity in its operation of a public water
system as defined in Section 116275.
CAL. HEALTH & SAFETY CODE §25249.12(d)
(d) Twenty–five percent of all civil and criminal
penalties collected pursuant to this chapter shall be
paid to the office of the city attorney, city prosecutor,
district attorney, or Attorney General, whichever
office brought the action, or in the case of an action
brought by a person under subdivision (d) of Section
25249.7, to that person.
U.S. CONST. art. III, §2
The judicial power shall extend to all cases, in law
and equity, arising under this Constitution, the laws
of the United States, and treaties made, or which shall
be made, under their authority; – to all cases affecting
ambassadors, other public ministers and consuls; – to
all cases of admiralty and maritime jurisdiction; – to
controversies to which the United States shall be a
party; – to controversies between two or more
states; – between a state and citizens of another
state; – between citizens of different states; – between
citizens of the same state claiming lands under grants
of different states, and between a state, or the citizens
thereof, and foreign states, citizens or subjects.
28 U.S.C. §1332(a)
(a) The district courts shall have original
jurisdiction of all civil actions where the matter in
controversy exceeds the sum or value of $75,000,
exclusive of interest and costs, and is between—
(1) Citizens of different States;
(2) citizens of a State and citizens or subjects of a
foreign state, except that the district courts shall not
have original jurisdiction under this subsection of an
6a

action between citizens of a State and citizens or
subjects of a foreign state who are lawfully admitted
for permanent residence in the United States and are
domiciled in the same State;
(3) citizens of different States and in which
citizens or subjects of a foreign state are additional
parties; and
(4) a foreign state, defined in section 1603(a) of
this title [28 USCS § 1603(a)], as plaintiff and citizens
of a State or of different States.
28 U.S.C. §1376(a)
(a) Except as provided in subsections (b) and (c) or
as expressly provided otherwise by Federal statute, in
any civil action of which the district courts have
original jurisdiction, the district courts shall have
supplemental jurisdiction over all other claims that
are so related to claims in the action within such
original jurisdiction that they form part of the same
case or controversy under Article III of the United
States Constitution. Such supplemental jurisdiction
shall include claims that involve the joinder or
intervention of additional parties.
28 U.S.C. §1447(c)-(d)
(c) A motion to remand the case on the basis of any
defect other than lack of subject matter jurisdiction
must be made within 30 days after the filing of the
notice of removal under section 1446(a). If at any time
before final judgment it appears that the district court
lacks subject matter jurisdiction, the case shall be
remanded. An order remanding the case may require
payment of just costs and any actual expenses,
including attorney fees, incurred as a result of the
removal. A certified copy of the order of remand shall
7a

be mailed by the clerk to the clerk of the State court.
The State court may thereupon proceed with such
case.
(d) An order remanding a case to the State court
from which it was removed is not reviewable on appeal
or otherwise, except that an order remanding a case
to the State court from which it was removed
pursuant to section 1442 or 1443 of this title shall be
reviewable by appeal or otherwise.
28 U.S.C. §1651(a)
(a) The Supreme Court and all courts established
by Act of Congress may issue all writs necessary or
appropriate in aid of their respective jurisdictions and
agreeable to the usages and principles of law.
FED. R. APP. P. 35(a)(1)
Rule 35. En Banc Determination
(a) WHEN HEARING OR REHEARING EN BANC MAY
BE ORDERED. A majority of the circuit judges who are
in regular active service and who are not disqualified
may order that an appeal or other proceeding be heard
or reheard by the court of appeals en banc. An en banc
hearing or rehearing is not favored and ordinarily will
not be ordered unless:
(1) en banc consideration is necessary to secure or
maintain uniformity of the court's decisions; or
(2) the proceeding involves a question of
exceptional importance.
FED. R. APP. P. 47(a)
Rule 47. Local Rules by Courts of Appeals
(a) LOCAL RULES.
(1) Each court of appeals acting by a majority of
its judges in regular active service may, after giving
8a

appropriate public notice and opportunity for
comment, make and amend rules governing its
practice. A generally applicable direction to parties or
lawyers regarding practice before a court must be in a
local rule rather than an internal operating procedure
or standing order. A local rule must be consistent
with—but not duplicative of—Acts of Congress and
rules adopted under 28 U.S.C. §2072 and must
conform to any uniform numbering system prescribed
by the Judicial Conference of the United States. Each
circuit clerk must send the Administrative Office of
the United States Courts a copy of each local rule and
internal operating procedure when it is promulgated
or amended.
NINTH CIR. RULE 27-10
MOTIONS FOR RECONSIDERATION
(a) Filing for Reconsideration
(1) Time limit for orders that terminate the case
A party seeking further consideration of an order
that disposes of the entire case on the merits,
terminates a case, or otherwise concludes the
proceedings in this Court must comply with the time
limits of FRAP 40(a)(1). (Rev. 7/1/16)
(2) Time limit for all other orders
Unless the time is shortened or expanded by order
of this Court, a motion for clarification, modification
or reconsideration of a court order that does not
dispose of the entire case on the merits, terminate a
case or otherwise conclude proceedings in this Court
must be filed within 14 days after entry of the order.
(Rev. 12/1/09; Rev. 7/1/16)
(3) Required showing
9a

A party seeking relief under this rule shall state
with particularity the points of law or fact which, in
the opinion of the movant, the Court has overlooked
or misunderstood. Changes in legal or factual
circumstances which may entitle the movant to relief
also shall be stated with particularity.
(b) Court Processing
Motions Panel Orders: A timely motion for
clarification, modification, or reconsideration of an
order issued by a motions panel shall be decided by
that panel. If the case subsequently has been assigned
to a merits panel, the motions panel shall contact the
merits panel before disposing of the motion. A party
may file only one motion for clarification,
modification, or reconsideration of a motions panel
order. No answer to a motion for clarification,
modification, or reconsideration of a motions panel’s
order is permitted unless requested by the Court, but
ordinarily the Court will not grant such a motion
without requesting an answer and, if warranted, a
reply. The rule applies to any motion seeking
clarification, modification, or reconsideration of a
motions panel order, either by the motions panel or by
the Court sitting en banc. (New 1/1/04; Rev. 12/1/09;
Rev. 7/1/16)
Orders Issued Under Circuit Rule 27-7: A
motion to reconsider, clarify, or modify an order issued
pursuant to Circuit Rule 27-7 by a deputy clerk, staff
attorney, circuit mediator, or the appellate
commissioner is initially directed to the individual
who issued the order or, if appropriate, to his/her
successor. The time to respond to such a motion is
governed by FRAP 27(a)(3)(A). If that individual is
disinclined to grant the requested relief, the motion
10a

for reconsideration, clarification, or modification shall
be processed as follows: (New 1/1/04; Rev. 7/1/16)
(1) if the order was issued by a deputy clerk or staff
attorney, the motion is referred to an appellate
commissioner;
(2) if the order was issued by a circuit mediator,
the motion is referred to the chief circuit
mediator;
(3) if the order was issued by the appellate
commissioner or the chief circuit mediator, the
motion is referred to a motions panel.
Ninth Circuit General Order ¶6.11
6.11. Motions for Reconsideration En Banc
Any motion or petition seeking en banc review of
an order issued by a motions or oral screening panel
shall be processed as a motion for reconsideration en
banc. The Clerk shall forward a motion for
reconsideration en banc of a motion previously
considered by a motions or oral screening panel to the
appropriate staff attorney for processing. If the
motion was decided by published order or opinion, the
motion will be circulated to all active judges. In cases
involving judgments of death, the Clerk shall forward
all motions for reconsideration en banc to Associates.
The motion shall be referred by the staff attorney
to the panel which entered the order in issue. The
panel may follow the relevant procedures set forth in
Chapter 5 in considering the motion for rehearing en
banc, or may reject the suggestion on behalf of the
Court. (Rev. 3/24/04; 12/13/10; 9/17/14)

11a

In the United States Court of Appeals
for the Ninth Circuit
No. 18-17463
D.C. No. 3:18-cv-05538-VC
Northern District of California, San Francisco
ENVIRONMENTAL RESEARCH CENTER, INC.,
PLAINTIFF-APPELLEE,
v.
HOTZE HEALTH WELLNESS CENTER
INTERNATIONAL ONE, LLC, INDIVIDUALLY
AND ALLEGEDLY DOING BUSINESS AS HOTZE
VITAMINS; ET AL.,
DEFENDANTS-APPELLANTS.
DECLARATION OF LAWRENCE J. JOSEPH
I, Lawrence J. Joseph, hereby declare and
state as follows:
1.
I am over 18 years of age, and I reside in
McLean, Virginia.
2.
I am the counsel for appellants in the
above-captioned action.
3.
On January 9, 2019, I met and conferred
by phone with appellee’s counsel – Jason Flanders –
to discuss appellee’s forthcoming motion to dismiss
and appellants’ cross-motion to renew the stay-andrecall relief that appellants sought in district court.
Our meet-and-confer discussions continued via email
on January 10, 2019, with me advising Mr. Flanders
12a

that he could “represent to the Court that appellants
will oppose [appellee’s] motion and cross-move to
stay and recall the remand pending resolution of the
appeal, renewing in the Court of Appeals the motion
that appellants filed below on December 27, which
the District Court denied on January 2.” Mr.
Flanders replied by email that appellee “opposes
[the] proposed [cross-]motion on the basis that the
court of appeals lacks jurisdiction.”
4.
Appellee’s complaint in the underlying
action seeks “civil penalties for each and every
violation,” “injunctive orders, or other orders as are
necessary to prevent Hotze Vitamins from exposing
persons to lead without providing clear and
reasonable warning,” and “such other relief as the
Court may deem just and proper.” See Appellee’s
Mot. to Dismiss Appeal, Flanders Decl. Ex. B, at 8-9
(copy filed as ECF #1-1 below).
5.
Paragraph 25 of the plaintiff’s complaint
(ECF #1-1) provides as follows:
There exists an actual controversy relating to
the legal rights and duties of the Parties,
within the meaning of Code of Civil
Procedure section 1060, between ERC and
Hotze Vitamins, concerning whether Hotze
Vitamins has exposed individuals to a
chemical known to the State of California to
cause cancer, birth defects, and other
reproductive harm without providing clear
and reasonable warning.
(ECF #1-1).
6.
In apparent response to appellants’
quotation of the foregoing language from the
complaint (see Paragraph 5, supra) in the notice of
13a

removal (ECF #1), plaintiff’s counsel responded via
email – which plaintiff subsequently submitted as
evidence in the District Court – as follows:
Your allegation that ERC alleges that its
“legal rights and duties” are in “actual
controversy” does NOT establish injury in
fact. Note that this allegation was set forth in
the cause of action for declaratory relief.
(ECF #20 (capitalization in original)).
7.
Paragraph 4 of the Prayer for Relief in
plaintiff’s complaint (ECF #1-1) provides as follows:
“On all Causes of Action, for reasonable attorneys’
fees pursuant to Code of Civil Procedure section
1021.5 or the substantial benefit theory[.]”
8.
In its motion to remand the case, ERC
stated that “[a]ny allegations in the Complaint that
Defendants or the Court interpret to allege concrete,
particularized, and actual harm, Plaintiff will seek
leave to amend.” Mot. to Remand Case to California
Superior Court, at 7 (ECF #19).
9.
In the District Court, appellee filed a
declaration from its executive director admitting to
forty-four (44) instances of purchasing Hotze
Vitamins products that appellee claims violate
Proposition 65 (EFC #29), which I summarized under
penalty of perjury in a declaration (ECF #31) and in
the table appended hereto as Exhibit A.
10. In the District Court, appellants
submitted declarations from James Bittick (ECF #24,
and attached hereto as Exhibit B) and Gina
Teafatiller (ECF #25, and attached hereto as Exhibit
C) to the effect that the limited partnership
operating as Hotze Vitamins has fewer than 10
employees and that the other two defendants are
14a

wholly uninvolved in the Hotze Vitamins business.
In the District Court, appellee neither rebutted this
evidence nor even responded to it.
11. Appellants filed sworn statements (ECF
#24, #25) that two defendants (Hotze Health &
Wellness Center International One, L.L.C. and
Braidwood Management, Inc.) do not engage in
vitamin sales and that the third defendant
(Physician’s Preference International, LP) – which
operates as “Hotze Vitamins” – has had fewer than
10 employees threshold at all times relevant to this
action.
12. In briefing the remand and transfer
issues below, I am not aware that plaintiff sought to
rebut the evidence that defendants submitted (see
Paragraph 11, supra) or made a good-faith,
information-and-belief basis for thinking that two
defendants (Hotze Health & Wellness Center
International
One,
L.L.C.
and
Braidwood
Management, Inc.) are involved in vitamin sales or
that Proposition 65 applies to Physician’s Preference
International, LP based on Proposition 65’s 10employee threshold.
13. In the District Court, appellants’ counsel
submitted two declarations (ECF #23, 31, and
attached hereto as Exhibit D and E, respectively,
with their exhibits removed).
14. Appellants submitted a post-hearing
brief (ECF #35) at the direction of the district judge’s
invitation (ECF #33), and that letter brief provided
inter alia that:
Even if California were a real party in
interest, this Court still would have diversity
jurisdiction over Count II, based on the
15a

monetary reimbursement that ERC could
seek plus the attorney-fee award. While
taking away the penalties makes the
amount-in-controversy rely on the attorneys
fees, they still would easily exceed $75,000.
See Second Joseph Decl. 2 (¶6) (ECF #31)
(attorney-fee award over $150,000). With
diversity jurisdiction thus established, this
Court would have supplemental jurisdiction
over Count I. 28 U.S.C. §1367; Kanter v.
Warner-Lambert Co., 265 F.3d 853, 858 (9th
Cir. 2001) (“we hold that if a named plaintiff
in a diversity class action has a claim with an
amount in controversy in excess of $75,000,
28 U.S.C. § 1367 confers supplemental
jurisdiction over claims of unnamed class
members irrespective of the amount in
controversy in those claims”); Riggs v. Plaid
Pantries, Inc., 233 F. Supp. 2d 1260, 1269 (D.
Or. 2001).
(ECF #35 (italics in original)). The district judge’s
order allowed appellants until noon (Pacific) on
December 21, 2018, to file the letter brief, and the
EFC notice of docket activity for the letter’s filing
shows docketing at 11:47 a.m. (Pacific), which was 4
hours and 25 minutes before the notice of docket
activity for the remand order (ECF #36) at 4:12 p.m.
(Pacific) on the same day.
15. By email dated January 17, 2019
(attached hereto as Exhibit F in redacted form),
appellee’s counsel – Michael Freund – admitted that
appellee’s legal fees already exceed $75,000
(specifically, $36,585.00 for MF, $21,677.50 for RH,
$31,509.00 for ATA, and $41,199.49 for ERC, which
on information and belief represent Mr. Freund, his
16a

associate Ryan Hoffman, the Aqua Terra Aeris Law
Group, and appellee Environmental Research
Center, respectively). Although the redacted
information discussed settlement of other issues, the
email expressly stated that “The fees … are nonnegotiable.”
16. In the District Court, appellants’ counsel
submitted
evidence
that
appellee
recovers
restitution-like funds to “reimburse its reasonable
costs in bringing” the action (or words to that effect)
in settlements. (ECF #31, and attached hereto as
Exhibit E with its exhibits removed). In the District
Court, appellee neither rebutted this evidence nor
even responded to it.
17. In the remanded case, Appellants filed a
declaration (attached hereto as Exhibit G) that
states that “[Hotze Vitamins] has disabled the ability
to order from its website to a California shipping
address, and [Hotze Vitamins] has no current plans
to reinstate the ability for users of its website to
order to a California shipping address.” In preparing
this declaration, I attempted to purchase products
from the website using a California shipping
address, and the website rejected by other with the
message “Sorry for the inconvenience but we are no
longer able to ship into California.”
I declare under penalty of perjury that the foregoing
is true and correct of my personal knowledge, which I
believe to be true and if called as a witness I would
be competent to testify thereto. Executed on this 4th
day of April, 2019.
/s/ Lawrence J. Joseph

17a

SUPERIOR COURT OF THE STATE OF
CALIFORNIA, COUNTY OF ALAMEDA
ENVIRONMENTAL RESEARCH CENTER, INC.,
a California non-profit corporation
Plaintiff,
vs.
HOTZE HEALTH AND WELLNESS CENTER
INTERNATIONAL ONE, LLC, individually and
allegedly doing business as HOTZE VITAMINS;
BRAIDWOOD MANAGEMENT, INC.,
individually and allegedly doing business as
HOTZE VITAMINS; PHYSICIAN’S
PREFERENCE INTERNATIONAL, LP,
individually and doing business as HOTZE
VITAMINS; and DOES 1-100
Defendants.
Case No. _________
COMPLAINT FOR INJUNCTIVE AND
DECLARATORY RELIEF AND CIVIL
PENALTIES
Plaintiff Environmental Research Center. Inc.
hereby allege:
I. INTRODUCTION
1
Plaintiff
Environmental
Research
Center, Inc. (hereinafter "Plaintiff" or 'ERC") brings
this action as a private attorney general enforcer and
i n the public interest pursuant to Health & Safety
Code section 25249.7, subdivision (d). The Safe
Drinking Water and Toxic Enforcement Act of 1986
(Health & Safety Code section 25249.5 et seq.) also
known as "Proposition 65," mandates that businesses
with ten or more employees must provide a "clear
and reasonable warning prior to exposing any
individual to a chemical known to the state to cause
18a

cancer or reproductive toxicity . Lead is a chemical
known to the State of California to cause cancer,
birth defects, and other reproductive harm. This
complaint seeks injunctive and declaratory relief and
civil penalties to remedy the ongoing failure of
Defendants Hotze Health & Wellness Center
International One, L.L.C., individually and doing
business as Hotze Vitamins; Physician's Preference
International, LP, individually and doing business as
Hotze Vitamins; Braidwood Management, Inc.,
individually and doing business as Hotze Vitamins
(collectively, "Hotze Vitamins"); and Does 1-100
(hereinafter individually referred to as "Defendant"
or collectively as "Defendants"), to warn consumers
that they have been exposed to lead from a number
of Hotze Vitamins' nutritional health products as set
forth in paragraph 3 at levels exceeding the
applicable Maximum Allowable Dose Level ("MADL")
and requiring a warning pursuant to Health &
Safety Code section 25249.6.
II PARTIES
2.
Plaintiff ERC is a California non-profit
corporation dedicated to, among other causes,
helping safeguard the public from health hazards by
reducing the use and misuse of hazardous and toxic
chemicals, facilitating a safe environment for
consumers and employees, and encouraging
corporate responsibility.
3.
Defendant Hotze Vitamins is a business
that develops, manufactures, markets, distributes,
and/or sells nutritional health products that have
exposed users to lead in the State of California
within the relevant statute of limitations period.
These "SUBJECT PRODUCTS" (as identified in the
Notice of Violation dated May 10, 2018 attached
hereto as Exhibit A) are:(1) Hotze Vitamins Pure
Cleanse Functional Detoxification Powder Natural
Berry Flavor; (2) Hotze Vitamins Pure Pea Protein
Natural Vanilla Flavor, (3) Hotze Vitamins Pure Pea
Protein Natural Chocolate Flavor, (4) Hotze
Vitamins Optimal Greens Detoxification and Mental
19a

Clarity Lemon-Lime Flavor, (5) Hotze Vitamins
Bodyworks Plus by Dr Hotze, (6) Hotze Vitamins
Fiber Blend Plus Probiotics, (7) Hotze Vitamins Milk
Thistle Extract 150 mg, (8) Hotze Vitamins Dr
Hotze's Mocha Protein Bar, (9) My Hotze Pak Detox
Starter Pak which includes the following products: a.
My Hotze Pak Detox Starter Pak Breakfast, b. My
Hotze Pak Detox Starter Pak Lunch, and c. My
Hotze Pak Detox Starter Pak Dinner; (l 0) My Hotze
Pak Skinny Pak which includes the following
products: a.My Hotze Pak Skinny Pak Breakfast and
b. My Hotze Pak Skinny Pak Dinner; 11) Hotze
Vitamins Dr. Hotze's Dark Chocolate Coconut Bar,
(12) My Hotze Pak ·14 Day Detox Kit which includes
the following products: a. My Hotze Pak 14 Day
Detox Kit Bedtime, b. My Hotze Pak 14 Day Detox
Kit Dinner; c. My Hotze Pak 14 Day Detox Kit
Breakfast, d. My Hotze Pak 14 Day Detox Kit Upon
Rising, e. Hotze Vitamins Pure Cleanse Functional
Detoxification Powder Natural Berry Flavor, and f.
Hotze Vitamins Pure Pea Protein Natural Vanilla
Flavor; and (13) Hotze Vitamins Cranberry
Concentrate. Hotze Vitamins is a company subject
to Proposition 65 as it employs ten or more persons
and has employed ten or more persons at all times
relevant to this action.
4.
Defendants Does 1-100, are named
herein under fictitious names, as their true names
and capacities are unknown to ERC.
ERC is
informed and believes, and thereon alleges, that each
of said Does is responsible, in some actionable
manner, for the events and happenings hereinafter
referred to, either through said Does' conduct, or
through the conduct of its agents, servants or
employees, or in some other manner, causing the
harms alleged by ERC in this complaint. When said
true names and capacities of Does are ascertained,
ERC will seek leave to amend this complaint to set
forth the same.
III JURISDICTION AND VENUE
5.
This Court has jurisdiction pursuant to
20a

California Constitution Article VI, Section 10, which
grants the Superior Court original jurisdiction in all
causes except those given by statute to other trial
courts. The statute under which this action is
brought does not specify any other basis for
jurisdiction.
6.
This Court has jurisdiction over Hotze
Vitamins because Hotze Vitamins has sufficient
minimum contacts with California, and otherwise
intentionally avails itself of the California market
through the marketing, distribution, and/or sale of
the SUBJECT PRODU CTS in the State of
California so as to render the exercise of jurisdiction
over it by the California courts consistent with
traditional notions of fair play and substantial
justice.
7.
The Complaint is based on allegations
contained in the Notice of Violation dated May 10,
2018, served on the California Attorney General,
other public enforcers, and Hotze Vitamins. The
Notice of Violation constitutes adequate notice to
Hotze Vitamins because it provided adequate
information to allow Hotze Vitamins to assess the
nature of the alleged violations, consistent with
Proposition 65 and its implementing regulations. A
certificate of merit and a certificate of service
accompanied each copy of the Notice of Violation,
and both certificates comply with .Proposition 65 and
its implementing regulations.
The Notice of
Violation served on Hotze Vitamins also included a
copy of "The Safe Drinking Water and Toxic
Enforcement Act of 1986 (Proposition 65): A
Summary." Service of the Notice of Violation and
accompanying documents complied with Proposition
65 and its implementing regulations.
Attached
hereto as Exhibit A is a true and correct copy of this
Notice of Violation and associated documents. More
than 60 days have passed since ERC mailed the
Notice of Violation and no public enforcement entity
has filed a complaint in this case.
8.
This Court is the proper venue for the
21a

action because the causes of action have arisen in the
County of Alameda where some of the violations of
law have occurred, and will continue to occur, due to
the ongoing sale of Hotze Vitamins' products.
Furthermore, venue is proper in this Court under
Code of Civil Procedure section 395.5 and Health &
Safety Code section 25249.7.
IV STATUTORY BACKGROUND
9.
The Safe Drinking Water and Toxic
Enforcement Act of 1986 is an initiative statute
passed as "Proposition 65"by an overwhelming
majority vote of the people in November of 1986.
10.
The warning requirement of Proposition
65 is contained in Health & Safety Code section
25249.6, which provides:
No person in the course of doing business shall
knowingly and intentionally expose any individual to
a chemical known to the state to cause cancer or
reproductive toxicity without first giving clear and
reasonable warning to such individual, except as
provided in Section 25249. 10. .
11.
Implementing
regulations
for
Proposition 65 define expose as "to cause to ingest,
inhale, contact via body surfaces or otherwise come
into contact with a listed chemical." An individual
may come into contact with a listed chemical through
water, air, food, consumer products and any other
environmental exposure as well as occupational
exposures." (Cal. Code Regs., tit. 27, § 25102, subd.
(i).)
12.
In this case, the exposures are caused
by consumer products. Implementing regulations for
Proposition 65 define a consumer product exposure
as "an exposure which results from a person's
acquisition, purchase, storage, consumption, or other
reasonably foreseeable use of a consumer good, or
any exposure that results from receiving a consumer
service."(Cal. Code Regs., tit. 27, § 25602, subd. (b).)
13.
Whenever a clear and reasonable
warning is required under Health & Safety Code
22a

section 25249.6, the "method employed to transmit
the warning must be reasonably
calculated
considering the alternative methods available under
the circumstances, to make the warning message
available prior to exposure." (Cal. Code Regs., tit. 27,
§25601.) The warning requirement may be satisfied
by a warning that appears on a product's label or
other labeling, shelf labeling, signs, a system of
signs, public advertising identifying the system and
toll-free information services, or any other system,
that provides clear and reasonable warnings. (Cal.
Code Regs., tit. 27, §25603.1, subd. (a)-(d).)
14.
Proposition 65 establishes a procedure
by which the State is to develop a list of chemicals
"known to the State to cause cancer or reproductive
toxicity."(Health & Safety Code, § 25249.8.) There is
no duty to provide a clear and reasonable warning
until 12-months after the chemical is publishe on the
State list. (Health & Safety Code, § 25249.10, subd.
(b).)
15.
Lead was listed as a chemical known to
the State of California to cause developmental
toxicity in the fetus and male and female
reproductive toxicity on February 27, 1987. Lead was
listed as a chemical known to the State of California
to cause cancer on October 1, 1992. (State of
Califorrua EPA OEHHA Safe Drinking Water and
Toxic Enforcement Act of 1986 Chemicals Known to
the State to Cause Cancer and Reproductive
Toxicity.) The MADL for lead as a chemical known
to cause reproductive toxicity is 0.5 micrograms per
day.(Cal. Code Regs., tit. 27, §25805, subd. (b).) The
No Significant Risk Level for lead as a carcinogen is
15 micrograms per day. (Cal. Code Regs., tit. 27,
§25705, subd. (b).)
16.
Proposition 65 pi:ovides that any person
"violating or threatening to violate" Proposition 65
may be enjoined in any court of competent
jurisdiction. (Health & Safety Code, §25249.7, subd.
(a).) To "threaten to violate" means "to create a
condition in which there is a substantial probability
23a

that a violation will occur."(Health & Safety Code, §
25249. 11, subd. (e).) Furthermore, violators are
subject to a civil penalty of up to $2,500 per day for
each violation. (Health & Safety Code, § 25249.7,
subd. (b)(l).)
17.
Proposition 65 may be enforced by any
person in the public interest who provides notice
sixty days before filing suit to both the violator and
designated law enforcement officials. The failure of
law enforcement officials to file a timely complaint
enables a citizen suit to be filed pursuant to Health
& Safety Code section 25249.7, subdivisions (c) and
(d).
V STATEMENT OF FACTS
18.
Hotze
Vitamins
has
developed,
manufactured , marketed, distributed, and/or sold
the SUBJECT PRODUCTS containing lead into the
State of California. Consumption of the SUBJECT
PRODUCTS according to the directions and/or
recommendations provided for said products causes
consumers to be exposed to lead at levels exceeding
the 0.5 micrograms per day MADL and requiring a
warning. Consumers have been ingesting these
products for many years, without any knowledge of
their exposure to lead, a very dangerous chemical.
19.
For many years, Hotze Vitamins has
knowingly and intentionally exposed numerous
persons to lead without providing a Proposition 65
warning. Prior to ERC's Notice of Violation and this
Complaint, Hotze Vitamins failed to provide a
warning on the labels of the SUBJECT PRODUCTS.
Hotze Vitamins has at all times relevant hereto been
aware that the SUBJECT PRODUCTS contained
lead and that persons using these products have
been exposed to this chemical. Hotze Vitamins has
been aware of the presence of lead in the SUBJECT
PRODUCTS and has failed to disclose the presence
of this chemical to the public, who undoubtedly
believe they have been ingesting totally healthy and
pure products pursuant to the company 's
24a

statements. On
the
company's
website
(https://www.hotzevitamins.com/our-story), various
representations from Steven F. Hotze, M.D. are
conveyed regarding the quality and beneficial nature
of its products including but not limited to the
following:
*
"Our goal is to help you achieve health
and wellness ·naturally so that you may
enjoy a better quality of life, and these
products will help to ensure that."
*
"All of the products designed for Hotze
Vitamins® are formulated at state-ofthe-art facilities following strict Good
Manufacturing Practices (GMP) guidelines."
*
"As a medical doctor, I am convinced of
the absolute need for vitamin and mineral
supplementation, and I can assure you that all of the
Hotze Vitamins® nutritional products have been
researched and developed with your good health in
mind ."
20.
Both prior and subsequent to ERC's
Notice of Violation, Hotze Vitamins failed to provide
consumers of the SUBJECT PRODUCTS with a
clear and reasonable warning that they have been
exposed to a chemical known to the State of
California to cause cancer, birth defects and other
reproductive harm. This failure to warn is ongoing.
FIRST CAUSE OF ACTION
(Violation of Section 25249.6 of the Health and
Safety Code, Failure to Provide Clear and
Reasonable Warning under Proposition 65)
21.
ERC refers to paragraphs
1-20,
inclusive, and incorporates them herein by this
reference.
22.
By committing the acts alleged above,
Hotze Vitamins has, in the course of doing
business, knowingly and intentionally exposed
users of the SUBJECT PRODUCTS to lead, a
chemical known to the State of California to cause
25a

cancer, birth defects, and other reproductive harm,
without first giving clear and reasonable warning to
such individuals within the meaning of Health &
Safety Code section 25249.6. In doing so, Hotze
Vitamins has violated Health & Safety Code section
25249.6 and continues to violate the statute with
each successive sale of the SUBJECT PRODUCTS.
23.
Said violations render Hotze Vitamins
liable for civil penalties, up to $2,500 per day for
each violation, and subject Hotze Vitamins to
injunction.
SECOND CAUSE OF ACTION
(Declaratory Relief)
24.
ERC refers to paragraphs 1-23,
inclusive, and incorporates them herein by this
reference.
25.
There exists an actual controversy
relating to the legal rights and duties of the Parties,
within the meaning of Code of Civil Procedure
section 1060, between ERC and Hotze Vitamins,
concerning whether Hotze Vitamins has exposed
individuals to a chemical known to the State of
California to cause cancer, birth defects, and other
reproductive harm without providing clear and
reasonable warning.
VI PRAYER
WHEREFORE ERC prays for relief as follows:
1.
On the First Cause of Action, for civil
penalties for each and every violation according to
proof;
2.
On the First Cause of Action, and
pursuant to Health & Safety Code section 25249.7,
subdivision (a), for such temporary restraining
orders, preliminary and permanent injunctive
orders, or other orders as are necessary to prevent
Hotze Vitamins from exposing persons to lead
without providing clear and reasonable warning;
3.
On the Second Cause of Action, for a
declaratory judgment pursuant to Code of Civil
26a

Procedure section 1060 declaring that Hotze
Vitamins has exposed individuals to lead without
providing clear and reasonable warning; and
4.
On all Causes of Action, for reasonable
attorneys' fees pursuant to Code of Civil Procedure
section 1021.5 or the substantial benefit theory;
5.
For costs of suit herein; and
6.
For such other relief as the Court may
deem just and proper.
DATED: July 30, 2018
MICHAEL FREUND & ASSOCIATES
/s/
Michael Freund
Ryan Hoffman
Attorneys for Plaintiff
ENVIRONMENTAL RESEARCH CENTER, INC.

27a

IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
SAN FRANCISCO AND OAKLAND DIVISION
ENVIRONMENTAL RESEARCH CENTER, INC., a
California non-profit corporation, PLAINTIFF,
v.
HOTZE HEALTH & WELLNESS CENTER
INTERNATIONAL ONE, L.L.C., individually and
allegedly doing business as HOTZE VITAMINS;
BRAIDWOOD MANAGEMENT, INC., individually
and allegedly doing business as HOTZE VITAMINS;
PHYSICIAN’S PREFERENCE INTERNATIONAL,
LP, individually and doing business as HOTZE
VITAMINS; and DOES 1-100, DEFENDANTS.
Case No. 3:18-cv-5538
NOTICE OF REMOVAL
REMOVAL FROM THE SUPERIOR COURT OF
CALIFORNIA, COUNTY OF ALAMEDA, CASE
NO. RG18914802 (FILED JULY 30, 2018), HON.
BRAD SELIGMAN PRESIDING
TO THE CLERK OF THE UNITED STATES
DISTRICT COURT, NORTHERN DISTRICT OF
CALIFORNIA:
PLEASE TAKE NOTICE that defendant
Physician's Preference International, LP, doing
business as Hotze Vitamins (“PPILP”), hereby
removes to this Court, pursuant to 28 U.S.C. §§1331,
1332(a), 1337, 1441 & 1446, the above-referenced
case pending in the Superior Court of California,
County of Alameda, for which this federal District
Court has original subject matter jurisdiction. The
basis for federal jurisdiction is federal complete
28a

preemption, diversity of citizenship, and federal law
regulating commerce or protecting trade and
commerce. Defendant PPILP appears solely for the
purpose of removal and not for any other purpose,
reserving all defenses available to it. Defendant
PPILP expressly and fully reserves its right to object
to personal jurisdiction in its first responsive
pleading.
1.
On
July
30,
2018,
Plaintiff
Environmental Research Center, Inc., a California
non-profit corporation (“Plaintiff”), filed in the
Superior Court of the State of California, Alameda
County, a lawsuit entitled “Complaint for Injunctive
and Declaratory Relief and Civil Penalties”
(hereinafter, “Complaint” or “Compl.”) and captioned
as follows:
ENVIRONMENTAL RESEARCH CENTER,
INC., a California non-profit corporation v.
HOTZE HEALTH & WELLNESS CENTER
INTERNATIONAL ONE, L.L.C., individually
and doing business as HOTZE VITAMINS;
BRAIDWOOD
MANAGEMENT,
INC.,
individually and doing business as HOTZE
VITAMINS; PHYSICIAN’S PREFERENCE
INTERNATIONAL, LP, individually and
doing business as HOTZE VITAMINS; and
DOES 1-100.
The Superior Court assigned the case number
RG1891480, with the Hon. Brad Seligman presiding.
Contrary to this caption, only defendant PPILP does
business as Hotze Vitamins.
2.
Plaintiff served Defendants on August
14, 2018.
3.
Federal statutes fully regulate the
labeling of vitamins and dietary supplements, and
thereby completely preempt this field, particularly
with respect to the non-additive, trace amounts of
substances allegedly in the natural ingredients at
29a

issue here. These federal statutes include, but are
not limited to, the Food, Drug, and Cosmetic Act of
1938, 21 U.S.C. §§301-399a, the Nutrition Labeling
and Education Act of 1990, 21 U.S.C. §343(r) et seq.
the Dietary Supplement Health and Education Act of
1994, 21 U.S.C. §321(ff), the Food And Drug
Modernization Act of 1997, 21 U.S.C. §353a, and the
implementing federal regulations issued thereunder
and pursuant to additional federal statutory
authority.
4.
This complete preemption by federal
labeling laws and regulations concerning vitamins
and dietary supplements is within the meaning of
complete preemption for removal purposes as
established in Rutledge v. Seyfarth, Shaw,
Fairweather, & Geraldson, 201 F.3d 1212, 1215 (9th
Cir.), amended by 208 F.3d 1170 (9th Cir.), cert.
denied, 531 U.S. 992 (2000).
5.
Plaintiff’s Complaint attached hereto
seeks to compel Defendants to modify the labeling on
vitamins and dietary supplements with respect to
trace amounts of lead as it allegedly exists in their
natural ingredients, and to impose substantial fines
despite the full compliance of the labeling with
applicable federal law.
6.
This removal is timely in accordance
with 28 U.S.C. §1446(b)(3), because this notice of
removal is filed within 30 days of service of the
Complaint on Defendants on August 14, 2018.
7.
Because the federal labeling laws for
vitamins and dietary supplements completely
preempt state law with respect to non-additive,
natural ingredients, removal is appropriate here. See
Rutledge, cited supra.
8.
Removal is also appropriate pursuant to
28 U.S.C. §1332(a) based on the complete diversity of
the parties, whereby Plaintiff is a resident of
California (Compl. ¶ 2) and Defendants are all
residents of Texas, and the amount in dispute is in
excess of $75,000 exclusive of interest and costs.
30a

Specifically,
Plaintiff demands payment
by
Defendants of $2,500 per alleged violation dating
back to 2015, which exceeds $75,000.
9.
In addition, Plaintiff demands payment
by Defendants of attorneys’ fees which likewise, upon
information and belief, will exceed $75,000.
Attorneys’ fees, including expected future fee
demands, may be included in the calculation for
diversity threshold purposes. See Brady v. MercedesBenz USA, Inc., 243 F. Supp. 2d 1004, 1010-11 (N.D.
Cal. 2002) (including potential future attorneys’ in
order to calculate the amount in controversy for the
purposes of establishing diversity jurisdiction).
10.
On information and belief, Plaintiff and
its counsel have no good-faith basis to view
Proposition 65 as applying to Hotze Vitamins, and an
attorney-fee award for the nuisance value of this
litigation is their purpose for bringing suit.
11.
Moreover, the cost to defendant PPILP
of complying with Plaintiff’s demanded injunctive
relief would exceed $75,000, and “[t]he amount in
controversy may include the cost of complying with
such an injunction.” See Simmons v. PCR Tech., 209
F. Supp. 2d 1029, 1034 (N.D. Cal. 2002) (citing
Schwarzer, Tashima & Wagstaffe, Cal. Practice
Guide: Fed. Civ. Pro. Before Trial P2:483 (The Rutter
Group 2001); In re Ford Motor Co./Citibank, 264
F.3d 952, 958 (9th Cir. 2001)).
12.
Thus there is more than sufficient
evidence for this Court to find, pursuant to 28 U.S.C.
§1446(c)(2), that the amount in controversy exceeds
$75,000 and thereby satisfies the threshold
requirement in 28 U.S.C. §1332(a).
13.
The location of the unidentified
defendants having fictitious names is not relevant to
diversity jurisdiction. 28 U.S.C. §1441(b)(1).
14.
Plaintiff filed six (6) separate lawsuits
nearly simultaneously against numerous businesses,
including Defendants, and scheduled a "Complex
Determination Hearing" on the same day for all of
31a

them (Sept. 11, 2018). In written correspondence
dated July 13, 2018, Defendants advised Plaintiff (a)
that they are distinct legal entities under Texas law,
(b) that only defendant PPILP does business as
Hotze Vitamins, and (c) that defendant PPILP has at
all relevant times had fewer than the ten employees
necessary for Proposition 65 to apply, CAL. HEALTH
&
SAFETY
CODE
§
25249.11(a)-(b).
Notwithstanding the foregoing, Plaintiff filed its
state-court action without any good-faith basis for
believing that Defendants violated Proposition 65.
This excessive litigation by Plaintiff and its counsel
constitutes a conspiracy in restraint of trade, in
violation of Section One of the Sherman Act, for
which there is exclusive jurisdiction in federal court.
15 U.S.C. §1; 28 U.S.C. §1337(a).
15.
Upon information and belief, Plaintiff
seeks recovery of its expenses incurred in arranging
for the testing of products sold by defendant PPILP,
and this expense by Plaintiff establishes an injuryin-fact to Plaintiff.
16.
In addition, Plaintiff expressly alleges
that its “legal rights and duties” are in “actual
controversy” in its lawsuit, and thus Plaintiff has
alleged and acknowledged an injury-in-fact at issue
in its Complaint. (Compl. ¶ 25)
17.
Furthermore, the State of California is
an appropriate co-plaintiff and counter-defendant to
this action, and Defendants’ responsive pleadings
will seek to join appropriate California officials
pursuant to the Federal Rules of Civil Procedure.
The State of California and its officials have an
alleged injury-in-fact in the form of the sought-for
penalties of $2,500 per alleged violation. (Id. ¶ 23)
18.
Venue is proper here because this
district encompasses Alameda County, California,
the county where the state court action is pending,
which falls within the San Francisco and Oakland
Division of this Court under Local Rule 3-2(d).
19.
In compliance with 28 U.S.C. §1446(a),
32a

the following items are attached: Exhibit A –
“Complaint for Injunctive and Declaratory Relief and
Civil Penalties.”
20.
All Defendants consent to this removal,
except for the defendants sued under fictitious
names who “shall be disregarded” for removal
purposes. 28 U.S.C. §1441(b)(1).
21.
Defendant PPILP, as the removing
party, will timely give all other parties written notice
of the filing of this Notice of Removal as required by
28 U.S.C. §1446(d). Pursiant to 28 U.S.C. §1446(d),
defendant PPILP will also timely file a copy of this
Notice of Removal with the Clerk of the Superior
Court of the State of California, Alameda County,
where the action is pending.
WHEREFORE,
defendant
Physician’s
Preference International, LP, individually and doing
business as Hotze Vitamins, hereby removes this
action from the Superior Court of the State of
California, County of Alameda, to this Court.
Dated: September 10, 2018
Respectfully submitted,
/s/
Lawrence J. Joseph (SBN 154908)
Law Office of Lawrence J. Joseph
1250 Connecticut Ave, NW, Suite 700-1A
Washington, DC 20036
Tel: 202-355-9452
Fax: 202-318-2254
Email: ljoseph@larryjoseph.com
Counsel for defendant Physician's
Preference International, LP, doing
business as Hotze Vitamins
33a

